Colorado Supreme Court
2019SC123
Certiorari to the Court of Appeals, 2018CA265
District Court, Mesa County, 2012DR18
In re the Marriage of
Petitioner, Samuel Collin Robinson
and
Respondent, Katherine Lyman Robinson

ORDER OF COURT
Date Filed: May 20, 2019

Upon consideration of the Petition for Writ of
Certiorari to the Colorado Court of Appeals and after
review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of
Certiorari shall be, and the same hereby is,
DENIED.
BY THE COURT, EN BANC, MAY 20, 2019

10

Appendix A

Colorado Court of Appeals
18CA0265
On Appeal From
Mesa County District Court, 12DR18
Honorable Thomas W. Ossola, Judge
In re the Marriage of
Katherine Lyman Robinson, Appellee
and
Samuel Collin Robinson, Appellant
ORDER AFFIRMED AND CASE
REMANDED WITH DIRECTIONS
Division III
Opinion by JUDGE WELLING
Webb and Harris, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced January 3, 2019

Catherine C. Burkey, P.C., Catherine C. Burkey,
Grand Junction, Colorado, for Appellee
Samuel Collin Robinson, Pro Se

Appendix B

11

In this post-dissolution of marriage proceeding
11
involving Samuel Collin Robinson (father) and
Katherine Lyman Robinson (mother), father appeals
the district court's order adopting the magistrate's
allocation of holiday parenting time for the parties'
children. We affirm.

I. Background

12

Mother and father are the parents of two
children. The district court dissolved their marriage
in 2012, at which time the court entered permanent
orders allocating parenting time to father every other
weekend, one evening per week, and on certain
holidays.

13

In 2016, father moved to modify parenting
time, asserting that equal parenting time was in the
children's best interests. Mother opposed father's
request and alerted the court of difficulties
surrounding father's weekday evening parenting
time.
Following an evidentiary hearing, the
14
magistrate maintained the regular parenting time
schedule but modified the holiday parenting time
schedule so that the parties would share holiday
parenting time equally. The district court denied
father's petition for review and adopted the

12

Appendix B

magistrate's order as an order of the district court
pursuant to C.R.M. 7(a)(l0).

II. Holiday Parenting Time
15
Father contends that the magistrate abused
her discretion by adopting a new holiday parenting
schedule that reduced his holiday parenting time and
that was not supported by the evidence. We disagree.
A. Standard of Review

16

A district court's review of a magistrate's order
is like appellate review, and the magistrate's
findings of fact cannot be altered unless clearly
erroneous. C.R.M. 7(a)(9); In re Parental
Responsibilities Concerning G.E.R., 264 P.3d 637,
638-39 (Colo. App. 2011). Our review of the district
court's decision is effectively a second level of
appellate review, and we apply the same clearly
erroneous standard to the magistrate's decision. In
re Marriage ofDean, 2017 COA 51,1 8; G.E.R., 264
P.3d at 639.

V

A trial court has broad discretion to establish
a parenting time schedule that is in the child's best
interests, and we will not disturb its orders absent
an abuse of discretion. In re Marriage ofHatton,
160 P.3d 326, 330 (Colo. App. 2007). We exercise
every presumption in favor of upholding the court's

Appendix B

13

decisions in parenting matters. Id. As long as there is
competent evidence to support the court's orders, we
will not disturb the parenting time schedule. Id.
B. Legal Principles
A trial courts may modify a parenting time
order whenever the modification would serve the
child's best interests. See§ 14-10-129(l)(a)(I), C.R.S.
2018; In re Marriage ofParr, 240 P.3d 509, 511
(Colo. App. 2010). Section 14-10-124(1.5)(a), C.R.S.
2018, lists the best interest factors applicable to
parenting time. The court need not make findings
concerning each and every factor. In re Custody of
C.J.S., 37 P.3d 479, 482 (Colo. App. 2001).

18

H9

It is the trial court's responsibility to judge the
credibility of witnesses and resolve conflicting
evidence as to the child's best interests. See In re
Marriage ofMcNamara, 962 P.2d 330, 333-34 (Colo.
App. 1998).
C. Analysis
10 Both parties proposed new holiday parenting
time schedules yet neither party presented evidence
specifically in support of their respective holiday
parenting time proposals. Father proposed various
schedules for eleven holidays or school breaks. The
magistrate rejected father's proposal, finding that it
was "complicated" and that it had "the potential to
14

Appendix B

cause more conflict if there was confusion" with the
schedule. The record supports the magistrate's
findings. For example, with respect to spring break,
father suggested alternating years with the following
provision^
If the children would spend more than one
fewer day with either parent during the period
between the end of the last day school is in
session prior to the break and the day school
resumes after the break, the parents will
coordinate to shift the exchange occurring
during the break by one or more days such
that the difference is reduced to one day,
rounded to the nearest day.
Father's proposal included similarly complicated
language for other holidays. And the record contains
ample evidence that mother and father's co­
parenting relationship is contentious and readily
prone to conflict, and that such conflict is not in the
children's best interest.
f 11 The magistrate instead adopted mother's
proposed holiday parenting time schedule, finding
mother's plan to be in the children's best interests.
Mother's proposal provided a schedule for spring
break, Thanksgiving, and Christmas, as well as
Mother's Day and Father's Day. The magistrate
favored mother's proposal because it took into
consideration that the children were in school,
Appendix B

15

because it was consistent with the parties' regular
parenting time schedule, and because it was less
complicated (and therefore less prone to cause
conflict). We also note that mother's proposed
schedule divides holiday parenting time equally.
112 Because the magistrate's findings are
supported by the record, we conclude that the
magistrate did not abuse her broad discretion in
determining that an equal holiday parenting time
schedule was in the children's best interests. See
Hatton, 160 P.3d at 330-31

III. Opinion Testimony
113 Father contends that the magistrate abused
her discretion in relying on the version of section 1410-127, C.R.S. 2018, in effect at the time of the
hearing, to preclude his expert, Dr. Warren Farrell,
from testifying about what parenting plan was in the
children's best interests. In father's view, section 1410-127 did not apply. We agree that section 14-10127 did not apply but disagree that the magistrate
abused her discretion in precluding that portion Dr.
Farrell's testimony.
114 Section 14-10-127 governs all aspects of
parental responsibilities evaluations (PRE) - who can
perform the evaluations, what the evaluation must
entail, and who may testify regarding the
16

Appendix B

evaluations. Here, however, Dr. Farrell was not
appointed to complete a PRE. Rather, father retained
him to observe father's parenting time with the
children and to recommend and testify to a parenting
time schedule that Dr. Farrell determined was in the
children's best interests. We therefore agree with
father that section 14-10-127 did not apply.
115 But the magistrate's erroneous reliance on
section 14-10-127 did not prevent Dr. Farrell from
testifying as an expert at the hearing. Indeed, the
magistrate qualified Dr. Farrell as an expert witness
in the area of applying evidence-based research
findings to the allocation of parental responsibilities,
and his testimony on direct examination spanned
nearly sixty-five pages of transcript. And although
the magistrate precluded Dr. Farrell from testifying
about what specific parenting time schedule was in
the children's best interests, he testified extensively
about his opinion that it is generally in childrens'
best interest to have "equal involvement" of both
parents (although, he admitted, certain factors can
justify departing from this presumption). He also
testified to his observations of father's parenting; but
he never interviewed mother or observed her with
the children. Simply put, the record does not support
father's contention that Dr. Farrell's expert
testimony was materially curtailed by the
magistrate's erroneous reliance on section 14-10-127.
116 The admission of expert testimony is subject to
review for an abuse of discretion. See People in

Appendix B

17

Interest ofA.E.L., 181 P.3d 1186, 1193 (Colo. App.
2008). Qualification of an expert witness is within
the court's discretion. See People in Interest of S.L.,
2017 COA 160, 168. "The weight to be accorded the
testimony of an expert is within the sound discretion
of the trier of fact." People v. Katz, 58 P.3d 1176,
1194 (Colo. O.P.D.J. 2002). An abuse of discretion
occurs only when the trial court's decision is
manifestly arbitrary, unreasonable, or unfair. See
People in Interest of S.G., 91 P.3d 443, 450 (Colo.
App. 2004).
117 Here, the record indicates that the magistrate
carefully considered Dr. Farrell's testimony, but
accorded it very little weight, as is the fact finder's
prerogative. See People in Interest of S.G., 91 P.3d
443, 452 (Colo. App. 2004) ("It is the province of the
trial court sitting as the fact finder to determine the
credibility of a witness and to determine the weight
and probative effect of the testimony."). In her
written order, the magistrate disregarded Dr.
Farrell's testimony because he-did not evaluate
mother's allegations against father of abuse and badmouthing and because he did not interview mother
or observe her with the children. Indeed, the
magistrate found as follows^
The Court does not, therefore, find that the
specific evidence presented by Dr. Farrell is
helpful to the Court to make a determination
as to the best interests of the children, since it
18

Appendix B

was one sided, and did not consider factors
that even Dr. Farrell admits would be
exceptions to his findings [in favor of equal
involvement].
H18 The magistrate's conclusions in this regard are
well supported by the record. Thus, we conclude the
magistrate did not abuse her discretion in limiting
and weighing Dr. Farrell's testimony. See S.L.,THf 6974. Put differently, even if the magistrate had
admitted Dr. Farrell's parenting time
recommendation, it would likely not have affected
the magistrate's parenting time decision.
Accordingly, the district court did not err in rejecting
this challenge to the magistrate's order.

IV. Children's Fundamental Rights
f 19 Father contends that the children have
fundamental rights to parenting time with each
parent. Whether the children have such fundamental
rights, however, is not dispositive of father's
contention because the magistrate did not deprive
the children of parenting time with either of their
parents. Under the magistrate's order, the children
have parenting time with their father every other
weekend, one evening per week, and on certain
holidays, and they have parenting time with mother
at all other times. Because the children were not
deprived of parenting time with either parent, their

Appendix B

19

fundamental rights, to the extent they have rights
under the law, were not violated.

V. Equal Protection
Tf20 Father contends that the magistrate deprived
the children of their equal protection rights by
entering parenting time orders allocating unequal
parenting time. We disagree.
If 21 The right to equal protection of the law
guarantees that all individuals who are similarly
situated are treated similarly. See Colo. Const, art.
II, § 251 In re Marriage of Tonnessen, 937 P.2d 863,
866 (Colo. App. 1996). If a law does not classify
individuals, there can be no equal protection issue
presented. See Tonnessen, 937 P.2d at 866.
f22 Section 14-10-124(1.5)(a) sets forth the factors
relevant to a child's best interests as related to
allocation of parental responsibilities. The statute
does not create any groups that would be treated
differently in an allocation of parental
responsibilities matter. Rather, it requires the court
to consider the child's best interests in all cases
involving parenting matters. See § 14-10-124(1.5);
see also§ 14-10-123.4(l)(a), C.R.S. 2018 (children
have the right to have decisions in parental
responsibilities proceedings made based on their best
interests). Because the applicable statutes do not
20

Appendix B

create a classification, father has not presented a
valid equal protection issue. See Tonnessen, 937 P.2d
at 867.

VI. Mother's Request for Attorney Fees
123 Mother requests her appellate attorney fees
under section 14-10-119, C.R.S. 2018, contending
that father has substantially greater financial
resources than she does to litigate this appeal.
Because the district court is better equipped to
resolve the factual issues regarding the parties'
current financial circumstances, we remand mother's
request to the district court. See In re Marriage of
Kann, 2017 COA 94, 1 84.

VII. Conclusion
124 We affirm the district court's order adopting
the magistrate's ruling and remand the case for
resolution of mother's request for appellate attorney
fees under section 14-10-119.
JUDGE WEBB and JUDGE HARRIS concur.

Appendix B

21

District Court, Mesa County, Colorado
2012DR18

Petitioner, Katherine Lyman Robinson
and
Respondent, Samuel Collin Robinson
ORDER
ON PETITION FOR MAGISTRATE REVIEW
Date Filed* January 25, 2018

THIS MATTER comes before the Court for
consideration of multiple petitions for Judicial
Review filed by Mr. Robinson and the Court having
considered the matters contained in the file and the
transcript of the hearing before the Magistrate,
finds, concludes and orders the following.
A hearing was held before the Magistrate on Mr.
Robinson's motion to modify parenting time. Mrs.
Robinson also sought modification of the then
existing plan. An extensive hearing was held in
which experts testified. The Magistrate issued an
order on April 28, 2017. On May 18, 2017, Mr.
Robinson filed a motion for review. The Magistrate
issued another order on June 6, 2017 followed by

22

Appendix C

another motion for review filed by Mr. Robinson on
June 12, 2017. The Magistrate entered an amended
plan on October 30, 2017, correcting clerical errors.
Mr. Robinson filed a final motion for review on
November 6, 2017.
While Mr. Robinson filed multiple motions for
review, the issues remain substantially the same.
The Court having considered all of the motions and
the orders of the Magistrate, concludes that the
orders of the Magistrate are supported by the record
and that he [sic] did not abuse his discretion.
WHEREFORE, IT IS ORDERED that all of the
motions for review are denied.
Issue Date- 1/25/2018
si Thomas W. Ossola
THOMAS WILLIAM OSSOLA
Senior Judge

Appendix C

23

District Court, Mesa County, Colorado
2012DR18

Petitioner, Katherine Robinson,
k/n/a Katherine Freeman
and
Respondent, Samuel Collin Robinson
ORDER
Date Filed- April 28, 2017

Re^ Motion to Modify Parenting Time and
Decision-Making, Verified Motion Regarding
Counseling and Parenting Time, Motion for
Attorney’s Fees and Costs
The Court has reviewed the evidence, and the
case file, and applicable statutory and case law, and
makes the following orders:
A hearing was held on March 29-30. 2017 on
the motions as noted above. Respondent (hereinafter
"Father"), filed a Verified Motion to Modify
Parenting Time on January 25, 2016. Petitioner,
(hereinafter "Mother") filed a response on February
5, 2016, in which she also requested that there be
modifications of parenting time, as well as a
24

Appendix D

modification of parenting time from joint decision­
making to her having sole decision-making.1 In
conjunction with her motion, she filed a Motion for a
Parental Responsibilities Evaluation, which request
was granted.
After the PRE (Dr. Bruce Bishop) filed his
report on September 15, 2016, Father filed a request
to continue the hearing set for October 6, 2016, as
well as a request for a Supplemental PRE to be
conducted by Dr. Saul Tompkins. Both requests were
granted. Further, on September 23, 2016, Father
filed a request to update the requested relief to
include his request that he have sole decision­
making. Additional motions were filed by Mother on
October 26, 2016 and March 13, 2017 respectively for ,
the Court to address counseling for the children,
Father's attendance at school, and payment of
attorney fees pursuant to C.R.S. §14-10-119.
Final orders in this matter were issued on
October 25, 2012. by agreement of the parties. The
orders provided that the parties would have joint
decision-making for the major decisions regarding
the children. Grace (d.o.b. -7-72007) and Gordon
(d.o.b. --/--/2009), and Father would have parenting
time on alternating weekends, as well as Wednesday
evenings.
1 The file contains filing of Sworn Financial Statements and
child support worksheets. No motion to modify child support
was filed, and the Court did not hear evidence regarding child
support modification.

Appendix D

25

The Court has reviewed the provisions of
C.R.S. 14-10-129 to make this determination of
modification of parenting time in the child's best
interest. Mother is the primary parent under the
order. Father requests to change that to equal
parenting time between the parents. Both parents
are asking to be made sole decision-makers.
C.R.S. 14-10-129 (2) (b) provides^
The court shall not modify a prior order
concerning parenting time that
substantially changes the parenting
time as well as changes the party with
whom the child resides the majority of
the time unless it finds, upon the basis
for facts that have arisen since the prior
decree or that were unknown to the
court at the time of the prior decree,
that a change has occurred in the
circumstances of the child or the party
with whom the child resides the
majority of the time and that the
modification is necessary to serve the
best interests of the child. In applying
these standards, the court shall retain
the parenting time schedule established
in the prior decree unless:
(emphasis added). The “unless” is followed by four
situations in which the primary parent could be
26

Appendix D

changed. In this circumstance, since neither party is
asking to change the primary parent. At most,
Father is asking that there not be a designated
primary parent. Even though Father's parenting
plan would increase his parenting time, necessarily
decreasing Mother's parenting time; the
determination for a change in parenting time would
be what is in the best interest of the children.
Before evaluating the factors regarding best
interest of the children, the Court will address the
expert testimony which was heard at the hearing.
Four separate expert witnesses testified. First, the
Court heard from Dr. Warren Farrell. Dr. Farrell
was hired by Father to provide support for Father's
request for a 50/ 50 or alternating week parenting
time schedule. Dr. Farrell testified as an expert in
evidence-based research findings to allocation of
parental responsibilities. He observed Father with
the children, and reported what he observed, as well
as testified as to the research he has done regarding
children with 50/ 50 parenting time plans. Dr.
Farrell's position is that children have the best
outcomes, first, in an intact family, but second when
parenting time is equal between parents. Dr. Farrell
testified to the many ways he found that children
react when they have equal time with both parents.
He did note that there are exceptions to this: when
there is physical or sexual abuse to a parent or
children, substance abuse, bad mouthing of the other
parent, and denial of access to the other parent.

Appendix D

27

Of Father's parenting of the children, Dr.
Farrell observed that Father uses many
opportunities for teaching the children, and that he
was very positive toward Mother. The report issued
by Dr. Farrell (Respondents Exhibit A2) recaps what
the children did and talked about with Father.
As was noted by Mother, he did not speak to
Mother, and did not observe Mother with the
children. His reasoning for this was that there would
be no need to observe Mother or speak with her,
because Father does not want to shut Mother out,
but wants Mother to have half of the time as well.
However, there is no mention in the report whether
or not Dr. Farrell evaluated the issues of abuse, and
bad mouthing on the part of Father,' both have been
alleged by Mother. The fact that Father was positive
about Mother when Dr. Farrell was watching him is
not significant enough for the Court to find that
Mother's concerns are unfounded (and will be
addressed further below). If Dr. Warren's premise is
rebutted in the instances of the existence or abuse
and bad-mouthing, it is not clear how he would ever
determine whether these concerns were present
without asking the other party. Here, it is not even
clear if he asked Father whether those were issues.
2 Both parties marked their exhibits with numbers. At the
hearing, the Court re-marked the exhibits with Father’s
exhibits being letters. The transcript reflects in most instances
the re-marking of the exhibits. Where this does not occur, the
intent of the Court was that for Father's exhibits that the
number correspond with the appropriate letter (A=l and so on),
through double letters.

28

Appendix D

The Court does not, therefore, find that the specific
evidence presented by Dr. Farrell is helpful for the
Court to make a determination as to the best interest
of the children, since it was one-sided, and did not
consider factors that even Dr. Farrell admits would
be exceptions to his findings.
The Court also heard testimony from Dr.
Bruce Bishop, who completed the Parental
Responsibilities Evaluation (hereinafter “PRE”). Dr.
Bishop ultimately recommended that Mother have
sole decision-making and that Father's parenting
time be decreased somewhat. This recommendation
was due in part to Dr. Bishop's concern that Father’s
behaviors had traits of being on the Autism
Spectrum. Specifically, Dr. Bishop found:
Stated rather bluntly, it was clearly
evident to this evaluator that father
struggles with a) a number of issues
related to social
communications/relationships,
especially as related to complex
interpersonal and social cues, and b)
subtle, yet markedly restricted and/or
repetitive patterns of behavior or
interests. These are the two primary
diagnostic criteria in the DSM-5 for a
broad range or heterogeneous conditions
under the umbrella label of Autism
Spectrum Disorder (American
Psychiatric Association. 2013).

Appendix D

29

(Petitioner's Exhibit 1. pg. 35). Dr. Bishop testified at
the hearing that he did not make a diagnosis of
Father, as he did not have the expertise, or did the
testing to do that. The Court does find, however, the
report was a bit ambiguous as to whether a diagnosis
had been made. Dr. Bishop's testimony further went
on to say that whether or not Father was diagnosed
with Autism Spectrum Disorder was not as
important to him as a consideration of Father's
symptoms and how they impact the children.
After these findings were made by Dr. Bishop,
as noted above, Father requested a Supplemental
PRE, which was conducted by Dr. Saul Tompkins.
Dr. Tompkins worked with Dr. Kent Rosengren, who
shares office space with Dr. Tompkins, to conduct
testing related to the issue of Autism Spectrum
Disorder. Dr. Rosengren concluded that Father did
not meet this criteria. Dr. Rosengren
used the ADOS Evaluation ("Autism Diagnostic
Observation Schedule") and concluded that Father
does not meet the criteria for Autism Spectrum
Disorder. Dr. Rosengren, in making this
determination, interviewed Father, using the
ADOS, which included both asking questions of
Father, as well as making observations of Father
during the interview. One of the challenges that Dr.
Rosengren noted was that typically this diagnostic
tool is used with young children, and parents are
reporting behaviors they have observed. In this case,

30

Appendix D

Dr. Rosengren was able to interview Father's
parents, who did not report any behaviors that would
meet these criteria. Dr. Rosengren also reviewed
school records of Father, which also did not find
behaviors which would meet the criteria
(Respondent's Exhibit 9).
Dr. Rosengren's report was a portion of the
Supplemental PRE, which was conducted by Dr. Saul
Tompkins. Dr. Tompkins also testified at the
hearing. Dr. Tompkins ultimate conclusion, along
with the determination that Father did not meet the
criteria for Autism Spectrum Disorder, was that
Father's parenting time should be expanded some,
but not to a 50/50 parenting time schedule. Dr.
Tompkins felt that the children were doing well
under this schedule, and to change it too
significantly would not be in their best interest.
Dr. Tompkins noted concern that Mother was
trying to shut Father out by requesting a change to
parenting time and sole decision-making. What is
interesting to the Court was that Father also made
this request, when he realized that Mother was
asking for sole decision-making. Father's filings and
testimony were that he felt that he needed to request
sole decision making due to changed circumstances,
but there was never a full discussion of what those
changes were, other than Mother's request. This
appears to be retaliatory, rather than a true
consideration of what is in the children's best
interest. The question is then, why is Mother

Appendix D

31

alienating Father by requesting sole decision­
making, but Father is not when he makes the same
request? The Court finds that if it finds that this is
an alienating behavior, it is one in which both
parents engaged.
Mother argued that Dr. Tompkins report was
not a true supplemental, because the information
was very limited. Dr. Tompkins, in his testimony,
disputed that argument. However, the Court cannot
find that the report is useful (with the exception of
the information regarding Father and the Autism
Spectrum Disorder), as it is not clear what he relied
upon to make his conclusions. For example, Dr.
Tompkins concludesThe children are doing very well right
now. They are doing well intellectually
and academically. They are both bright
and excelling in school. They are both
happy and free from any significant
emotional and/or mental problems.
(Respondent's Exhibit C. pg. 12).
There is no specific information from which
the Court understands that Dr. Tompkins drew this
conclusion. Page two of the report refers to the
information used in the evaluation process, but there
are no references in the report to home visits, what
collaterals were interviewed, and what supporting
documentation was referenced. Dr. Tompkins
confirmed in his testimony that he did not feel that
32

Appendix D

he needed to speak to any collaterals, despite having
listed them in his report. The Court cannot evaluate
the conclusion that the children are doing well in
school, if, for example. Dr. Tompkins did not talk to
school officials or review any school paperwork.
The Court next looks at this information, as
well as all of the evidence, in the context of the best
interest of the children. C.R.S. 14- 10-124. In making
the determination as to the best interest of the child,
pursuant to C.R.S. 14-10- 128 (l) (a) (I), the Court
first looks to whether there is credible evidence of
either domestic violence or child abuse/neglect. No
evidence was presented at the hearing that Mother
has been the perpetrator of spouse abuse or child
abuse or neglect. The Court notes that Mother has
alleged since the beginning of this case that Father
has been abusive toward her. The Court, at the
hearing, took judicial notice of the orders in this case,
and notes that Magistrate McNulty, in temporary
orders dated May 14, 2012, found that there was
credible evidence of spouse abuse perpetrated by
Father during the marriage. The parties reached
agreement as to final orders, so no hearing or
determination on this issue was made at that point.
There was no evidence presented at the
hearing that Father has been the perpetrator of
spouse abuse since the last order. Mother did testify
at this hearing that she is concerned that Father is
controlling of her. As part of her evidence, the Court
reviewed emails between the parties. The Court's

Appendix D

33

reading of the emails (Petitioner's Exhibits M. P, Q.
and R) notes that a strict reading of the emails shows
no harassment or abuse. Petitioner's Exhibit Q
shows a list of portions of emails with Mother's notes
about her perception regarding the language that
father was using. In her mind, Father was being
"demanding," in certain instances, which may be
based on her experience with the relationship. The
Court cannot find by the evidence provided that
these emails would be credible evidence of domestic
violence, however. Mother did not specifically argue
that Father has been the perpetrator of child abuse
or neglect, but did argue that Father does not have
the ability to recognize the emotional needs of the
children which is endangering to them. The Court
does not find that there is credible evidence that
Father has been the perpetrator of child abuse or
neglect, but will address Mother's concerns in the
context of mental health issues below.
The Court next looks at the remaining factors
related to the best interest of the child. The factors
are found in C.R.S. § 14T0T24(l.5)(a), and are as
follows^
1. The wishes of the child’s parents as to
parenting time. Mother is requesting parenting time
one weekend a month for three overnights and one
evening on the weeks he does not have overnights.
Father is requesting parenting time for alternating
weeks, transitioning on Tuesdays.

34

Appendix D

2. The wishes of the child if he or she is
sufficiently mature to express reasoned and
independent preferences as to the parenting time
schedule. The children are too young to express
reasoned and independent preferences as to
parenting time.
3. The interaction and interrelationship of the
child with his or her parents, his or her siblings and
any other person who may significantly affect the
child’s best interests. The children have been in the
primary care of Mother since the last order. Dr.
Bishop found in his report that the children are
securely attached to her (Respondent’s Exhibit 1. pg.
23). She is remarried, and the children appear to
have a good relationship with their stepfather.
Further, Mother has two children with her new
husband, and the children are very pleased to have
younger siblings, and have a bond with those
children.
As to Father, Dr. Bishop found that the children did
have signs of a secure attachment with Father, but
also showed signs of "emotional avoidance."
(Respondent's Exhibit l). Dr. Tompkins found that
the children were securely attached to both parents.
(Petitioner's Exhibit C. pg. 12).
4. The child's adjustment to his or her home,
school and community. Both children appear to be
adjusted to their respective homes once they have
adjusted to each parent's home. Both parents have
Appendix D

35

noted anxiety of the children, particularly Gordon,
during transitions. Dr. Tompkins references this
briefly in his report, only as a statement that
Father made one of Dr. Tompkins' evaluations
(Petitioner's Exhibit C. pg. 10), but he found
generally that the children are adjusted and doing
well in home, school and community. Dr. Bishop
spoke with collateral contacts, including people from
school. It was reported by Shannon Hoffman, who is
a counselor at Nisley Elementary where the children
attend school. Ms. Hoffman reported that...she clearly remembered Grace, and
said that the girl changed between
second and third grade, shifting from
outgoing and extroverted to more
withdrawn, anxious and possibly
depressed. She recalled that Grace
had dark circles under her eyes, and
struggles in transitions at school. She
was never present when Grace wrote
notes to her family, but recalled that
intervention. She said she worked
with Grace to understand the
separation anxiety she felt. They
worked together on ways to cope and
for Grace to understand that she
wasn't responsible for the situation or
for fixing things. Ms. Hoffman's
assessment was that Grace loves her
father, and felt guilty about how
things weren't working out... Ms.
Hoffman said that Grace told her that
36

Appendix D

night times were hard and she had
trouble sleeping.
(Respondent's Exhibit 1. pg. 32).
Helen Doehling, who was the children's first
grade teacher, also testified at the hearing to similar
concerns that Grace does not act the way she usually
does when Father is at school. She testified that
Grace "shrinks away a bit," when Father is present
at school. Mother noted concerns about Grace in
school, but felt that the children were doing "okay."
She had concerns about Grace's anxiety, as well as
concerns that Grace was not challenged enough at
school. Father disputed Mother's concerns, noting
that he is at the school observing Grace, and he does
not feel that there are concerns about either child in
school.
5. The mental and physical health of all
individuals involved, except that a disability alone
shall not be a basis to deny or restrict parenting
time. There was no evidence presented as to Mother's
mental or physical health. She testified that she had
been diagnosed with Post-Traumatic Stress Disorder,
but she has not had issues with this. There are no
physical health issues of any of the parties.
The Court noted the mental health issues of Father
above. The Court notes there is no official diagnosis
of Father with Autism Spectrum Disorder, or any
other mental health issue. The Court does note the
behaviors that Dr. Bishop found in his report that
Appendix D

37

were of concern to him. Specifically, Dr. Bishop
concludedIn essence, father’s inability to
demonstrate sensitive responsivity to
the children's emotional
communications the mechanism by
which attachments are formed and
sustained- is a significant deprivation
for these children. Father was able to
structure his time with the children
effectively, but only towards his own
agendas, without consideration of the
children's emotional needs. Both of
these children were consistently focused
on satisfying father's requirement for
intellectual performance. The evaluator
does not believe that this is because of
any malicious intent, but is almost
certainly purely due to what has been
called "mind blindness’— an inability to
emotionally experience his children's
worlds and needs. In neurotypical
parents, this allows a response to the
children's basic needs for recognition
and validation, but is not something of
what father is capable.
(Respondent's Exhibit 1. pg. 37).
Indeed, Father's responses to concerns noted by
Mother and her witnesses, including concerns about
what someone was feeling was discounted by Father
38

Appendix D

as being inaccurate. For example, when Mother
noted that Grace is anxious that she will be punished
if she is not able to answer the math problems that
Father puts to her correctly, Father testified that
those feelings are "not true,” Further, he is unable to
recognize Mother's feelings that Father attempts to
control her by making demands on her, simply
stating that his intent is not there, and therefore
does not give any understanding of Mother's feelings.
As noted above, the children have both displayed
anxiety. In addition to the concerns noted above
Grace, both parties acknowledged that Gordon can
be very distraught around transitions. Mother
testified that just prior to the hearing, Gordon
returned from Father's house he was in "full panic
attack,” and was "in the fetal position for an hour
while he shook." She was concerned that Father had
told the children about what was happening at court,
which Father did not dispute.
6. The ability of the parties to e ncourage the
sharing of love, affection and contact between the
child and the other party. Both parents asserted
that the other parent is important to the children.
The children are very aware of the conflict between
the parties which may well be the cause of the
children's anxiety.
Father alleges that Mother does not encourage a
relationship between him and the children, in part
because of the request she has made regarding
Appendix D

39

parenting time and decision-making. The Court does
not find this concern credible, because even if the
Court does not grant the request. Mother's concerns
regarding emotional availability for the children are
not made up. He also alleges that Mother does not
provide information regarding the children. There is
some support for this concern. Dr. Bishop found that
Mother has “at times ignored father’s
communications and made unilateral decisions."
(Respondent's Exhibit 1. pg. 42). The Court has noted
above the challenges that Mother has had in
communicating with Father, which Dr. Bishop feels
explains Mother's behaviors! however, this is still a
concern to the Court.
As to Father, the Court finds that there was credible
evidence that Father (intentionally or not) does not
encourage the relationship between Mother and the
children. Mother testified as to the times that she
heard Father say, in front of the children, that
Mother broke up their family. Further, Mother
provided examples in her testimony of times that
Father took actions that were clearly belittling of
Mother, including a time in which he criticized a
strategy that Mother recommended to one of the
children. Mother testified that Father has berated
her, and made statements to Gordon when Gordon
was crying that “I’m sorry Mom took you away, I
wish we could be a family, too." Father denied this,
but the Court found the testimony of Mother to be
credible.

40

Appendix D

Of greatest concern to the Court was how much
information regarding this case has been provided to
the children. In Father's testimony, he testified that
he had not told Gordon that Mother was going to jail
(related to a pre-decree Motion for Abduction
Prevention), but that in 2012, he testified that "I told
him I had obtained court-ordered abduction
prevention measures.” The Court could not tell when
this happened (if 2012 was related to the time the
information was provided, or the time that the orders
were obtained), but either way, this was not ageappropriate information and it clearly indicated that
Mother had done something wrong. Further, he did
admit that the children were aware of the court
proceeding, but that he "does not tell them any more
than necessary." Based on the above statement, the
Court is not certain that Father understands what
would be necessary for the children to know.
7. Whether the past pattern of involvement of
the parties with the child reflects a system of values,
time commitment and mutual support. The parties
appear to have similar values when it comes to the
importance of education and family. They both
believe that it is important for both parties to put the
children's needs first. They both admit that they
struggle with communication with one another, and
mutual support of the other parent.
8. The physical proximity of the parties to
each other as this relates to the practical
considerations of parenting time. The parties both
Appendix D

41

live in the Grand Junction area which the Court
finds does not impact practical considerations
regarding a parenting plan.
9. The ability of the parties to place the needs
of the child ahead of his or her own needs. Both
parties clearly love the children and want what is
best for them. The Court is concerned that Father is
focused on his needs, rather than the needs of the
children. As noted by Dr. BishopAt the same time, it is also quite
possible that the children have learned
to respond to father's queries in ways
that support his being able to take
action— i.e., when asked if he wanted to
play soccer, Gordon may have replied in
a way that he knew would please his
father (just as the children did during
the interactional session when it came
time to take down the tower they had
constructed — they chose to carefully
dissemble it step-by-step, even though
father provided a hint of what appeared
to be a choice to know [sic] it down,
which is the invariable choice of young
children). In short, it is likely that a
significant portion of what looks like
attentive parenting on father's part
constitutes a variety of enmeshment,
where the parent's needs are met

42

Appendix D

through the children's actions.
(Respondent's Exhibit 1, pg. 37 -38).
The incident regarding the tower was one that Dr.
Bishop testified about that the children appeared to
him to be taking Father's direction regarding the
tower construction during the parent/child
interaction. Father did not agree with Dr. Bishop's
analysis, but felt that he was “coaching them to help
them succeed" with the tower building, without
recognizing that this was not a win/lose activity.
Whether the reasons for Father's behavior are due to
Autism Spectrum Disorder as posited by Dr. Bishop
is not for the Court to determine, but how these
behaviors impact the children.
The greatest concern of the Court is that the
anxiety that the children are experiencing. The
Court is concerned that this court case and their
involvement in it, is a worry for them. The Court
does not find sufficient evidence that Mother is
attempting to withhold the children from Father, but
instead that she is trying to protect them. Regardless
of whether there is a diagnosis for Father of any
specific mental health issues, the evidence was
credible that Father's behaviors and treatment of
children, specifically at school, and speaking with
them about this case are causing anxiety for the
children. The Court did not hear any evidence of
anything that Mother has done that would cause
anxiety. This position is confirmed by Dr. Bishop's
report, which the Court found to be more

Appendix D

43

comprehensive than Dr. Tompkins' report. The Court
finds that Dr. Bishop's report, which notes concerns
about Father's behaviors and how it impacts the
children to be helpful. The Court, relied on the report
to make its determination as to what is in the
children’s best interest. The Court agrees with Dr.
Bishop's concern that Father is not able (without
making any findings as to why) to recognize the
children's emotional needs and react to them
appropriately). The Court does not find that Dr.
Bishop's concerns regarding Autism Spectrum, even
without a diagnosis to negate the findings of the
report as to the observations of the children and the
observations regarding Father’s behaviors.
The Court denies Father's request for a 50/50
parenting plan. The Court does not find that there is
sufficient evidence that these children would benefit
from such a plan. The opinions and evidence
presented by Dr. Farrell as outlined above were
incomplete at best, and did not consider the needs of
these specific children.
The Court however, despite agreeing with his
findings, does not find that the conclusion that Dr.
Bishop made to reduce time to one weekend a month
really resolves these issues. It is clear that the
children love Father and are bonded to him. The
Court found credible the evidence that the children
want to spend time with Father. To reduce time to
one weekend may cause more stress to the children,
who are already aware of these court proceedings

44

Appendix D

and the animosity between their parents. Further,
the evidence was that Father tries to pack so much
into the weekends that the Court is concerned that
this will accelerate if parenting time is decreased.
The Court therefore keeps the current plan as is.
The Court contemplated a number of changes,
including removing the Wednesday time. The Court
does not find that there was sufficient evidence for
the Court to decide that any specific change would be
in the children's best interest. The Court does not
find that there is any legal justification for removing
time, especially because without that Wednesday
time, there will be a significant gap between when
the children will see Father next, which may also
cause stress for them. The Court did not find that
there is sufficient evidence that it would be in the
children's best interest to make changes to the
regular current parenting plan, after consideration of
the best interest factors noted above.
There was no evidence as to the holiday plan!
however, the Court adopts the parenting plan that
was drafted by Mother on this issue, and the
remaining standard language. The Court reviewed
the language Father proposed for holidays, and
found it to be complicated and would have the
potential to cause more conflict if there was
confusion. The Court finds that the plan for holidays
and breaks from school proposed by Mother
recognizes that there are changes in the children's
ages, as well as being consistent with the findings

Appendix D

45

the Court made for the regular parenting plan. The
Court orders counsel for Mother to draft an amended
parenting plan for the Court's signature consistent
with this order.
In terms of the issue of modification of
decision-making, the Court considered C.R.S. 14-10
124. The Court did not review C.R.S. 14-10-131, as
the change each party is requesting is from joint
decision-making to sole decision-making. In re
Stewart, 43 P.3d 740 (Colo. App. 2002). The Court
adopts its findings above, related to child
abuse/domestic violence. The Court considers the
other factors below:
1. Credible evidence of the ability of the
parties to cooperate and to make decisions together.
The evidence is mixed on this issue. There have been
disagreements, some of which required court
involvement. There was also evidence of decisions
they were able to make together. (See Respondent's
Exhibit L). Both parties engaged in activities that
hindered a real discussion of issues regarding the
decisions for the children. As noted above. Mother
was not always forthcoming with information about
the children, or made decisions on her own. As to
Father, his attitude seemed to be that there was not
a problem with decision-making, so long as Mother
agreed with him. For example, with the issue of
Grace switching schools, he testified that while they
were not able to make a decision for her, his
perspective was it was the “best decision for Grace,”

46

Appendix D

and as “a result of that decision she is doing so well.”
This does not show Father's ability to evaluate the
other position, or to recognize that sometimes the
decisions are not "right" or "wrong," and compromise
is necessary.
2. Whether the past pattern of involvement of
the parties with the child reflects a system of values,
time commitment, and mutual support that would
indicate an ability as mutual decision makers to
provide a positive and nourishing relationship with
the child. The Court adopts the findings it made
above related to this issue and parenting time. Both
parents have the same general values when it comes
to the children, although they may have different
ways of looking at them.
3. Whether an allocation of mutual decision­
making responsibility on any one or a number of
issues will promote more frequent or continuing
contact between the child and each of the parties.
There are concerns that Mother has not fully
involved Father in the decision-making process.
Specifically. Mother testified that on the issue of
counseling, she had asked Father if he would agree
to counseling. Father's response was to ask what
Grace had said that made her think that. Mother
admitted that she did not respond to this request,
and testified that she did not believe "it would help
the situation.” Whether or not that is true, it is clear
that no real discussion about the issue was had. It

Appendix D

47

concerns the Court that this will continue if Mother
were made sole decision-maker.
The Court also notes Mother's concern that
Father would not be able to recognize the emotional
needs of the children. This concern was noted above
in Dr. Bishop's report. The Court agrees with tltis
concern. While there are concerns of the Court
related to the parties ability to make decisions
together, the Court finds that both parties have
taken actions which inhibit joint decision-making.
The Court finds that both parties have much to
contribute to these children's lives. The Court finds
that the children will not benefit by a modification of
decision-making to sole decision-making to either
party. Both requests arc therefore denied.
The next issue is whether the children should
be enrolled in counseling. As the Court found above,
the children are experiencing anxiety, and the Court
finds that counseling would be helpful for them to
have a safe place to discuss their feelings. The Court
does not believe that Father disagrees with
counseling, as much as he disagrees with the
discussion, or lack thereof, that the parties had
regarding the counseling issue. The Court re-read
Father's response to the motion filed on November
14, 2016, and does not see that he states that the
children should not have or do not need counseling.
The Court finds that counseling would be in the
children's best interest. The parties are to jointly
choose a counselor. If they are not able to agree on a
48

Appendix D

counselor, either party may file a motion for the
Court to make the final determination. The parties
are to split the cost of counseling according to the
percentage of income on the most recent child
support worksheet.
The Court is concerned that counseling may be
used as something other than a safe place for the
children to discuss their feelings. The Court has not
been able to determine the best "ground rules ... to
address these concerns. The Court will therefore at
this point simply order that the parents are to
respect the children's boundaries for their
discussions in counseling. Additionally, the children's
counselor may not testify at any court proceeding
unless a motion is filed prior to the hearing and good
cause shown as to why the testimony would be in the
children's best interest.
The more challenging issue is whether the
Court should restrict Father’s access to school. The
testimony was that Father has lunch with the
children and/ or volunteers in their classroom about
once a week or so. Mother alleges that these visits
cause the children anxiety, although it appears to be
related more to Grace than Gordon.
In terms of anxiety, there is some support for
this. As noted above, Shannon Hoffman and Helen
Doehling both testified that they noticed that Grace
would change in her demeanor in a negative way
when Father was present at the school. Father
Appendix D

49

testified that he believed that Grace enjoyed when he
was there. Father gave an example of how he
encouraged Grace to play football with the boys,
which Grace did not like at first, but then began to
enjoy. The Court is concerned, however, that
Father's explanation for any discomfort that Grace
may be experiencing is due to “her dad is the only
one who cares enough to be there and that gives her
notoriety,” according to his testimony. The Court also
noted concerns of Dr. Bishop that Father does not
have the ability to read the children's cues and
determine their emotional needs. This response of
Father as to the identification of Grace's feelings
would be consistent with Dr. Bishop's concern.
However, there is no legal authority that was
provided by Mother to give the Court the authority to
restrict Father's access to the children's school in this
manner. The Court is hopeful that the parties will
act in the children's best interest, rather than their
own, however, absent something specifically
harmful; the Court does not find that it can make
such an order. The request to restrict Father from
the children’s school is denied.
The last issue is related to attorney fees.
Mother has requested that her attorney fees be paid
by Father, pursuant to C.R.S. 14-10T19, which
provides'
[F]rom time to time, after considering
the financial resources of both parties,
50

Appendix D

may order a party to pay a reasonable
amount for the cost to the other party of
maintaining or defending any
proceeding under this article and for
attorney's fees ...
According to Mother's Sworn Financial
Statement (Petitioner's Exhibit 3), other than child
support, she has no other income. Her testimony was
that she is a full-time caregiver for the children in
her home. Her husband works, but the Court cannot
consider his income for this purpose. In re Erickson,
602 P.2d 909 (1979). Her expenses show that she has
a shortfall of over $3,000.00. While the Court does
not find it can consider her husband's resources, the
Court does find that it can consider the fact that the
expenses listed are half the responsibility of another
person. Therefore, it appears that she may not have
such a shortfall at the end of the month. There are
no other assets that are listed that can be used for
the costs of attorney fees.
As to Father's income, his Sworn Financial
Statement (Respondent's Exhibit GG), provides that
he earns $7,382.00 per month. His expenses show he
has approximately $100.00 left at the end of the
month. He also shows that this includes an
expenditure for $1,000.00 in savings. While savings
are important, it is also not a necessary expense. He
also shows assets in the form of savings. The
Court finds that he has the ability to assist with
Wife's attorney fees. While he argued that he could
not afford an attorney, it was clear that this was a

Appendix D

51

choice he made, rather than based on true financial
ability. He was able to pay the high costs of an outof-state witness (according to the testimony
$28,000.00 since the last proceedings in 2012 to
present). While his Sworn Financial Statement
shows $300.00 a month in legal/ accounting costs, it
is not clear what this is for. He did not have a
lawyer, and if he owes money for the expert witness,
the total cost is not included on his Sworn Financial
Statement. Further, there was no evidence about
accounting fees that would be a monthly cost for
Father.
The Court does not have an attorney fee
affidavit and finds in order to make a determination
as to what Father can afford to pay, the total costs
must be provided. The Court orders counsel for
Mother to provide her attorney fee affidavit within
21 days. Father will then have 21 days after that
date to argue the reasonableness of the fees and/or
request a hearing on the reasonableness of the fees.
After that, the Court will make a final determination
as to the attorney fee issue.
IT IS ORDERED this 28th day of April, 2017.
s/ Stephanie Rubinstein
MAGISTRATE STEPHANIE RUBINSTEIN
NOTICE: This order is issued in a proceeding in
which consent of the parties is unnecessary. Any
appeal of this order must be taken within 21 days
pursuant to Rule 7(a), C.R.M.
52

Appendix D

Colorado Revised Statutes § 14-10-124
The statute is lengthy. Pertinent portions are quoted
here. The text was given by a compilation updated
through 2016.
14-10-124. Best interests of child.
(l) Legislative declaration.
While co-parenting is not appropriate in all
circumstances following dissolution of marriage or
legal separation, the general assembly finds and
declares that, in most circumstances, it is in the best
interest of all parties to encourage frequent and
continuing contact between each parent and the
minor children of the marriage after the parents
have separated or dissolved their marriage. In order
to effectuate this goal when appropriate, the general
assembly urges parents to share the rights and
responsibilities of child-rearing and to encourage the
love, affection, and contact between the children and
the parents.
(1.5) Allocation of parental responsibilities.
The court shall determine the allocation of
parental responsibilities, including parenting time
and decision-making responsibilities, in accordance
with the best interests of the child giving paramount
consideration to the child's safety and the physical,
mental, and emotional conditions and needs of the
child as follows(a) Determination of parenting time.

Appendix E

53

The court, upon the motion of either
party or upon its own motion, may make provisions
for parenting time that the court finds are in the
child's best interests unless the court finds, after a
hearing, that parenting time by the party would
endanger the child's physical health or significantly
impair the child's emotional development. In
addition to a finding that parenting time would
endanger the child's physical health or significantly
impair the child's emotional development, in any
order imposing or continuing a parenting time
restriction, the court shall enumerate the specific
factual findings supporting the restriction and may
enumerate the conditions that the restricted party
could fulfill in order to seek modification in the
parenting plan. ... In determining the best interests
of the child for purposes of parenting time, the court
shall consider all relevant factors, including(I) The wishes of the child's parents as
to parenting time!
(II) The wishes of the child if he or she
is sufficiently mature to express reasoned and
independent preferences as to the parenting time
schedule!
(III) The interaction and
interrelationship of the child with his or her parents,
his or her siblings, and any other person who may
significantly affect the child's best interests!
(IV) The child's adjustment to his or her
home, school, and community!
(V) The mental and physical health of
all individuals involved, except that a disability
54

Appendix E

alone shall not be a basis to deny or restrict
parenting time!
(VI) The ability of the parties to
encourage the sharing of love, affection, and contact
between the child and the other party! except that, if
the court determines that a party is acting to protect
the child from witnessing domestic violence or from
being a victim of child abuse or neglect or domestic
violence, the party's protective actions shall not be
considered with respect to this factor!
(VII) Whether the past pattern of
involvement of the parties with the child reflects a
system of values, time commitment, and mutual
support!
(VIII) The physical proximity of the
parties to each other as this relates to the practical
considerations of parenting time!
(IX) and (X) Repealed.
(XI) The ability of each party to place
the needs of the child ahead of his or her own needs.
(1.7) Pursuant to section 14-10-123.4, children have
the right to have the determination of matters
relating to parental responsibilities based upon the
best interests of the child. In contested hearings on
final orders regarding the allocation of parental
responsibilities, the court shall make findings on the
record concerning the factors the court considered
and the reasons why the allocation of parental
responsibilities is in the best interests of the child.

Appendix E

55

